   United States Department of Agriculture
   Office of Inspector General




Application of FSIS Sampling Protocol for
Testing Beef Trim for E. coli O157:H7




                                             Audit Report 24601-0001-31
                                             May 2012
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250

DATE:          May 9, 2012

REPLY TO
ATTN OF:       24601-0001-31

TO:            Alfred V. Almanza
               Administrator
               Food Safety and Inspection Service

ATTN:          William C. Smith
               Assistant Administrator
               Office of Program Evaluation, Enforcement and Review

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Application of FSIS Sampling Protocol for Testing Beef Trim for
               E. coli O157:H7


Attached is a copy of the final report on the subject audit. Your written response to the official
draft report, dated April 13, 2012, is attached, with excerpts from your response and the Office of
Inspector General’s position incorporated in the relevant Findings and Recommendations sections
of the report.

Based on the agency’s response to our official draft report, we accept management decisions for
all recommendations in the report. You should follow your internal agency procedures for
providing final action correspondence for these recommendations. In accordance with
Departmental Regulation 1720-1, final action on the management decisions should be completed
within 1 year of the date of the management decisions to preclude being listed in the
Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................5
Section 1: Industry’s E. coli Testing....................................................................10
   Finding 1: FSIS Needs to Provide Clear Guidance for How Industry Should
   Respond to High Event Periods ........................................................................10
         Recommendation 1 ......................................................................................12
Section 2: FSIS and Its Testing Methodology for E. coli ..................................14
   Finding 2: FSIS Needs to Consider Shifting More Resources to Sampling
   Trim for E. coli ...................................................................................................14
         Recommendation 2 ......................................................................................15
         Recommendation 3 ......................................................................................16
   Finding 3: FSIS Needs to Improve the Consistency in How Its Inspectors
   Collect N-60 Samples ..........................................................................................17
         Recommendation 4 ......................................................................................21
         Recommendation 5 ......................................................................................21
   Finding 4: FSIS Needs to Better Communicate with State Meat Inspection
   Agencies and Small Plants .................................................................................22
         Recommendation 6 ......................................................................................24
         Recommendation 7 ......................................................................................25
Scope and Methodology.........................................................................................26
Abbreviations .........................................................................................................29
Exhibit A: Photographs of OIG’s Fieldwork ......................................................30
Exhibit B: Response to Congressional Request for Information Regarding
FSIS’ E. coli O157:H7 Testing ..............................................................................32
Agency’s Response .................................................................................................40
Application of FSIS Sampling Protocol for Testing Beef Trim for
E. coli O157:H7

Executive Summary

On November 12, 2009, the Chairwoman of the House Appropriations Subcommittee on
Agriculture, Rural Development, Food and Drug Administration, and Related Agencies wrote
to the United States Department of Agriculture’s (USDA) Office of Inspector General (OIG) to
express concerns about the efficacy of the testing the Food Safety Inspection Service (FSIS)
performs to detect Escherichia coli O157:H7 (E. coli) in U.S. beef “trim.”1 In order to respond
to this Congressional request, OIG divided its work into two phases. In Phase 1, which we
completed in February 2011, we reported that FSIS’ current method of sampling beef for E. coli
—known as N-602—does not yield the precision reasonable for food safety purposes, and
recommended that FSIS thoroughly reevaluate its sampling program for testing beef in order to
effectively verify process controls at beef processing plants.3 In this report, we are presenting
the results of Phase 2 of our review, which is based on fieldwork at beef slaughter and processing
plants. OIG initiated this portion of our audit to analyze whether the beef industry’s sampling
and testing protocols vary among plants and differ from FSIS standards, and also to examine
whether test results are used by FSIS and the beef industry to improve food safety.4

Based on our visits to six beef slaughter plants—directly responsible for processing about 17
percent of the U.S. beef supply5—we found that industry was performing thousands of E. coli
tests daily generally following FSIS’ recommended procedures. Overall, industry was taking
appropriate steps to help ensure that U.S. beef is safe from E. coli contamination, recognizing
that regardless of how stringently the industry tests for E. coli, there is always an inherent risk of
its presence in slaughter plants. We found these large plants showed strong initiative in their
efforts to control contamination and limit the ability of adulterated meat to make its way in to
commerce. Plants took preemptive action, often acting on presumptive positive test results and
in some instances, destroying whole days’ worth of production in the name of safety. When
positive test results were found, plants were conducting investigations to determine the cause and
applied corrective actions to prevent future occurrence of E. coli contamination. We also found
that these plants generally utilized nationally accredited laboratories for their sample analysis.
We did, however, note several areas where FSIS and industry could further ensure food safety.

1
  Trim consists of the pieces of meat that are cut away to make sought after cuts more desirable. Trim is normally
processed into ground beef. (See photographs of beef trim at Exhibit A.)
2
  As part of N-60, FSIS inspectors take 60 small, thin sample pieces of exterior carcass material from a very large
unit of trim, known as a “lot,” and ship those samples to designated FSIS laboratories to be tested for the presence of
E. coli.
3
  FSIS Sampling Protocol for Testing Beef Trim for E. coli O157:H7, dated February 2011.
4
  See Exhibit B for the seven questions posed by the Chairwoman and our supplemental information to fully answer
each question.
5
  Since four of the plants we visited were owned and operated by major corporations and those plants may be
considered representative of how those corporations operate (meaning plants within the same corporation used
similar food safety safeguards and sampling techniques), the plants we visited represent, indirectly, about 70 percent
of the U.S. beef supply.

                                                                           AUDIT REPORT 24601-0001-31                1
Since consumers ultimately rely on industry’s testing and interventions to keep our beef E. coli
free, it is critically important that, when plants receive multiple positive test results (otherwise
known as “high event” periods), the plants respond appropriately to these spikes in E. coli
contamination. We found, however, that FSIS has not issued detailed and sufficient guidance for
defining industry’s plans for high event days and setting forth the agency’s expectations for how
industry should react. Predictably, different plants have very different high event day plans with
different critical elements. By providing better guidance to plants about how they should
develop their plans, and what critical elements should be included, FSIS can also make the
process more transparent to industry. In this way, FSIS and industry may also avoid a situation
like the one that took place in September 2011, when a plant shipped about 80,000 pounds of
beef after it received multiple positive E. coli tests during its production. After an FSIS
investigation, the plant recalled this beef. OIG maintains that, if FSIS is more explicit about how
it expects plants to respond to such high event days, the agency, industry, and the public will
benefit.

We also found that FSIS needs to consider shifting more of its testing resources to sampling trim,
instead of ground beef, for E. coli. At present, each year FSIS collects and tests many more
samples of raw ground beef than trim (about 12,300 compared to 1,270 in 2011) even though
data strongly indicate that positives are more likely to be found in trim than raw ground beef.
This has occurred because FSIS initially focused its efforts on finished ground beef, and it was
not until 2007 that FSIS began testing trim. More recently, however, USDA has begun to
emphasize the testing of trim, particularly in testing for other types of pathogens, such as the
recent initiative to begin testing for six additional strains of E. coli other than O157:H7. OIG
believes that FSIS should follow suit and begin testing more trim so that it can maximize its
results, better promote public health, and trace contamination problems to their source.

FSIS also needs to improve the consistency with which its inspectors collect N-60 samples since
we found that, although inspectors are required to take samples that weigh about 325 grams, they
often took samples that were much too large. Dealing with these overweight samples taxes the
laboratory’s resources and dilutes the ratio of surface to interior tissue—the exterior is where E.
coli contamination is most likely to be found. Inconsistencies of this sort occur because FSIS
has not adequately evaluated how inspectors perform their work to identify and address these
types of problems. If FSIS does not sample consistently, then N-60 may not be serving its
intended purpose of verifying that plants’ E. coli-preventing interventions are working as
intended and that FSIS is effectively monitoring the plants’ operations.

We also noted that in some cases FSIS’ sampling policies and procedures allowed plants to
sidestep regulations to avoid receiving noncompliance records. FSIS needs to eliminate these
policy ambiguities because noncompliance records trigger more serious enforcement actions and
require corrective measures that would improve how the plants control E. coli.

Finally, we found that FSIS needs to take steps to ensure that small plants, particularly those
regulated by State meat inspection agencies as part of a cooperative agreement with USDA, are



2    AUDIT REPORT 24601-0001-31
being correctly overseen. Although Talmadge-Aiken (T/A) plants (known by the common name
of the law6 that created this arrangement), are responsible for less than 1 percent of the U.S. beef
supply, our visit to one of these plants in Utah indicated that the State agency was not issuing the
plant noncompliances for serious deficiencies in the plant’s sanitary dressing procedures. These
problems occurred because FSIS was not effectively communicating its standards and guidance
and was conducting only sporadic oversight of the State agencies. FSIS officials stated that they
were unaware of these problems and the agency intends to perform their own internal review to
determine if T/A plants warrant increased oversight.

OIG concluded that, overall, industry was taking adequate steps to ensure that beef leaving
slaughter plants is free of E. coli contamination, but that FSIS could take additional steps to
strengthen certain elements of the E. coli sampling and testing system.

Recommendation Summary
Issue revised guidance to industry regarding the agency’s expectations for trim sampling and
how industry should plan for and react to high event day periods, including the critical elements
to be included in a high event period plan and the necessary support for the high event period
criteria.

Review the available scientific data and hold discussions with appropriate stakeholders to
determine if FSIS sampling resources could be better utilized and if the identification of E. coli
contamination could be improved by sampling more beef trim and less ground beef.

Reevaluate the policies for how inspectors collect trim samples, including collecting samples of
proper weight. Also reevaluate noncompliance policy ambiguities and revise agency procedures
to ensure that industry is not avoiding regulatory action.

Develop a detailed plan with milestones and timeframes to determine whether the quality of
inspection in T/A plants is such that there is a higher potential for E. coli contamination in the
products these plants produce. If so, require additional FSIS oversight and improve
communication at T/A plants and State inspection agencies.

Agency Response
In its April 13, 2012, written response to the official draft report, FSIS expressed agreement with
all our findings and recommendations. We have incorporated the FSIS response in the Findings
and Recommendations section of this report, along with our comments in the applicable OIG
Position sections. FSIS’ response to the official draft is included in its entirety at the end of this
report.


6
  7 U.S.C. 450 The Federal State Cooperative Act (Talmadge-Aiken) authorizes the Secretary of Agriculture to enter
into cooperative arrangements with State departments of agriculture and other State agencies to assist the Secretary
in the administration and enforcement of relevant Federal laws and regulations to the extent and in the manner
appropriate to the public interest.

                                                                         AUDIT REPORT 24601-0001-31               3
OIG Position

We concur with FSIS’ proposed corrective actions and have accepted management decision for
all seven recommendations. We have provided our comments on each recommendation in the
applicable OIG Position sections.




4    AUDIT REPORT 24601-0001-31
Background and Objectives

Background
FSIS is the public health regulatory agency of USDA. As such, the agency protects consumers
by ensuring that beef is safe, wholesome, and accurately labeled. Under the Federal Meat
Inspection Act (FMIA),7 FSIS inspects all beef sold in interstate commerce to ensure that it
meets U.S. food safety standards.

According to the Centers for Disease Control and Prevention, E. coli are a large and diverse
group of bacteria. Most strains of E. coli are harmless, but other strains of E. coli, such as
E. coli O157:H7, cause illness by making Shiga toxin. The symptoms of Shiga toxin
poisoning can include severe stomach cramps, diarrhea, and vomiting. Most people who
consume beef contaminated with E. coli will recover within 5 to 7 days; some infections are
very mild, but others can be lethal. The Centers for Disease Control and Prevention estimate
that E. coli O157:H7 causes about 60,000 cases of Shiga poisoning annually in the United States:
in 2010, 20 of these cases proved fatal. USDA’s Economic Research Service8 estimates that the
total costs, such as doctor bills and hospitalization costs, associated with consuming E. coli-
contaminated meat are about $488 million annually.

In 1994, a federal court held that the Department could reasonably consider E. coli O157:H7 an
adulterant, and consequently that it could, as part of its statutory authority, regulate ground beef
that might be contaminated.9 FSIS relies on the authority provided by the FMIA to test ground
beef and trim. Although it has not codified that authority in Federal regulations, it has issued
multiple agency directives. In March 2010, FSIS issued its most recent version of Directive
10,010.1, entitled “Microbiological Testing Program and Other Verification Activities for
Escherichia coli O157:H7 in Raw Ground Beef Products and Raw Ground Beef and Beef Patty
Components.” This directive includes instructions to FSIS inspection personnel and other
program investigators on sampling and other verification activities for E. coli O157:H7 in raw
beef products. In August 2008, FSIS drafted a “Compliance Guideline for Sampling Beef
Trimmings for Escherichia coli O157:H7.” The draft was published for comment so industry
should be aware of FSIS’ expectations, but it has yet to be finalized.

FSIS inspection staff are responsible for monitoring all operations of beef slaughter
establishments. As part of their monitoring activities, FSIS inspection personnel are to review all
of the plant’s testing results and any monitoring activities that may impact the establishment’s




7
  21 U.S.C. 601
8
  The Economic Research Service is a primary source for economic information and research and strives to inform
public and private decision making on economic and policy issues involving several agriculture-related areas
including food safety, consumption, and assistance.
9
  Texas Food Industry, et al., v. Mike Espy, et al., Civ. No. A-94-CA-748 JN, U.S. District Court, Western District,
Texas, Austin Division, December 13, 1994.

                                                                          AUDIT REPORT 24601-0001-31               5
hazard analysis. 10 This includes all E. coli O157:H7 testing the plant performs. When
reviewing establishment test results, inspectors should take note of multiple positive E. coli test
results indicating a systemic breakdown of process controls (known as “high event days”). The
determination of a high event day is important because decisions made regarding the disposition
of product and necessary corrective and preventative actions should be addressed as part of the
plant’s high event plan.11

Ground beef is often made of less tender and less popular cuts of beef. After slaughter, the cattle
carcass is cut into various primal cuts of meat (e.g., chuck, loin, ribs, rounds, etc.). Once the
primal cuts are removed, the pieces of meat and fat that remain, known as “beef trim,” are either
ground or sold to processing plants for grinding into hamburger products. 12 The large quantity
of ground beef produced in the U.S.—using nearly 4 billion pounds of trim annually13—is sold
to a wide variety of customers, including grocery stores, restaurants, fast food establishments,
and the National School Lunch Program.

Since 1994, FSIS has tested ground beef for E. coli O157:H7; beginning in 2007, the agency
expanded its testing program to include testing beef trim. E. coli can contaminate beef trim
when fecal material from slaughtered cattle comes into contact with, and remains on, the carcass.
To prevent beef trim from becoming contaminated, plants apply interventions—safety controls
such as lactic acid sprays, carcass washes, or steam cabinets, which are intended to
decontaminate carcasses before they are cut into pieces or the meat is shipped from the plant.
Although E. coli grows very slowly when it is refrigerated, cold, and even freezing temperatures,
do not destroy it. The actual dose necessary to infect a person is unknown, but most scientists
believe that a small amount of E. coli can cause serious illness and even death, especially in
younger children. The only certain and practical way of destroying all E. coli in a serving of
ground beef is to cook the product thoroughly to 160 degrees Fahrenheit or hotter, internally.

FSIS explained that its sampling and testing program for E. coli O157:H7 is not so much a way
of guaranteeing that a given shipment of ground beef or trim is free from contamination, but
rather a way of detecting breakdowns in plants’ processing controls or applied interventions that
would lead to unusually high levels of E. coli contamination. The program is also a way of
communicating to plants that they are being monitored. While FSIS inspectors may sample
ground beef or trim from large plants each month, they may test for E. coli O157:H7 in some
small to medium-sized plants as seldom as one sample per quarter. It is important to recognize



10
   Establishments are to perform a hazard analysis to understand the food safety hazards that are reasonably likely to
occur in the process of producing each of their products and develop a system to address these hazards. Within their
hazard control systems, USDA requires that meat plants take responsibility for reducing contamination from disease
causing bacteria.
11
   FSIS “Compliance Guideline for Sampling Beef Trimmings for Escherichia coli O157:H7,” in draft since August
12, 2008.
12
   FSIS defines beef trim in Directive 10,010.1 Rev 3 p. 9.
13
   February 2008 FSIS report titled “Risk-based Sampling for Escherichia coli O157:H7 in Ground Beef and Beef
Trim,” p. 7. The figure was an estimate of pounds of beef trim based on the estimated pounds of trim for each class
of beef. The slaughter data were taken from FSIS’ 2005 Electronic Animal Disposition Reporting System (eARDS)
data. The eARDS system provides information concerning animal disease and welfare in the U.S.

6     AUDIT REPORT 24601-0001-31
that although repeatedly testing a given lot improves the probability of finding E. coli, it cannot
guarantee that the sampled lot of beef is completely free from contamination.

When FSIS began developing a system to test for E. coli O157:H7 on beef trim, it concluded that
a sampling system called N-60 was the best available. N-60 sampling is based on a sampling
methodology presented by the International Commission on Microbiological Specifications for
Food, which explains that the number 60 is a sufficiently rigorous sampling methodology for
those food-borne hazards that are severe (cause severe illness or death) and where the pathogen’s
environment may increase the hazard.14

The N-60 sampling method requires an inspector to collect 60 pieces of beef trim from a
production lot of beef cuts or trimmings that will be used for the making of ground beef. The
pieces the inspector collects are small thin slices preferably from the trim cuts that were closest
to the surface of the carcass since E. coli would not normally be located inside the animal’s
muscles. FSIS designates the size of each of the 60 pieces sliced from a trim cut should be
3 inches x 1 inch x 1/8 inch, approximately the size of a rubber eraser and weighing about
325 grams in total. N-60 sampling is resource intensive, often taking inspection program
personnel over an hour to collect a sample. The 60 pieces are shipped as one sample to a
designated FSIS laboratory where it is composited for testing to determine the presence of E. coli
O157:H7.

Establishments sometimes do not hold product while waiting for test results, as evidenced by
recalls based on E. coli positive tests. However, from OIG plant observations, the sampled beef
is generally held from commerce until the results are returned. If E. coli is detected, then the
sampled beef is destroyed or used in cooked product where the contaminant will be destroyed.
In 2010, FSIS took steps to refine and improve its N-60 sampling program by (1) issuing more
detailed guidance concerning trim sampling, follow-up sampling, and tracing product back to the
source of the contamination; (2) producing an instructional video; and (3) improving its
laboratory procedures.

During calendar year 2011, FSIS analyzed 1,267 N-60 trim samples compared to 12,296 ground
beef samples. Onsite FSIS inspectors collect the 60 sample pieces for the tests from industry-
defined “lots.” A lot is a quantity of product produced from similar manufacturing conditions,
product types, or time periods. A “lot” of beef trimmings is typically 10,000 pounds or less
depending on the number of units in the lot.15 Beef trimmings are often collected and
transported in large bins that hold approximately 2,000 pounds of trim. The bins, or “combos,”
can be sampled as individual units, grouped in a five combo lot, or grouped in other lot sizes that
fit a company’s manufacturing process.

FSIS adopted the N-60 method not only to improve the effectiveness of its sampling, but also to
encourage the regulated industry to implement the method. According to FSIS officials, the
agency has recommended, in multiple documents, that establishments conduct testing of their

14
  In the proper conditions, E. coli O157:H7 can grow and become more numerous.
15
  FSIS allows plants that produce trim the flexibility to determine lot size. We obtained this information from
industry sources.

                                                                          AUDIT REPORT 24601-0001-31              7
own for E. coli O157:H7, since plants have considerable economic incentive to develop effective
sampling and testing systems. If E. coli O157:H7 is found in beef trim that has left the plant, the
plant is likely to bear the expense of recalling the product from commerce. In 2008, FSIS held a
public meeting to discuss methods for industry sampling of beef trimmings and its related draft
compliance guide. The compliance guide discusses the use of N-60 as part of industry statistical
process control programs. FSIS officials stated that encouraging industry to sample product for
pathogens is a goal of all FSIS sampling programs.

Large plants that sample product may collect frequent samples of N-60 for testing within a day’s
production in order to detect sharp spikes in E. coli contamination, indicating to a plant manager
that an intervention or process control is not working effectively and that immediate corrective
action is needed. Establishments that have an E. coli sampling program select a private
laboratory to perform their microbiological testing; however, FSIS does not require that plants
perform these tests, nor does it currently provide standards that plants must meet if they choose
to test their own product. Hazard Analysis and Critical Control Point (HACCP) regulations 16 do,
however, require that establishments verify, through testing or other means, that their food safety
systems work. FSIS may also look at an establishment’s sampling and testing methods during its
food safety assessments.17 Plants are not required to inform FSIS inspectors of positive test
results, but they are required to make the test results available for the inspector’s review. FSIS
inspectors are required to examine the test results at least weekly to determine whether plants
took appropriate corrective actions.

FSIS sees its N-60 sampling of beef trimmings as only one of a number of verification activities
FSIS conducts regarding establishment process controls for E. coli O157:H7. Sample collection
and analysis is one of the eight HACCP verification activities listed under the regulations in 9
Code of Federal Regulations (CFR) 417.8. HACCP requires that all significant hazards with the
products and production environment be identified and controlled. Therefore, FSIS sampling of
beef trimmings works along with these and other inspector verification activities, including FSIS
sampling of ground beef and other ground beef components, as well as industry process controls
and sampling, to reduce and detect E. coli O157:H7 in non-intact beef products (primarily
ground beef). According to FSIS officials, their N-60 sampling of beef trimmings needs to be
viewed as a component of the totality of verification activities within an establishment over time.

Under the Federal State Cooperative Act, the Secretary of Agriculture has the authority to enter
into cooperative agreements with State departments of agriculture so that State meat inspection




16
   Meat plants are responsible for complying with 9 CFR Part 417 of FSIS HACCP regulations. 9 CFR 417.2(b)
requires that every official establishment develop and implement a HACCP plan covering each product produced by
that establishment when the establishment’s hazard analysis reveals that one or more food safety hazards are
reasonably likely to occur in the process of producing the product. In its final rule on pathogen reduction in HACCP
systems, USDA required that meat plants take responsibility for reducing the hazards from disease causing bacteria.
17
   Under FSIS Directive 5100.1, Food Safety Assessments are performed by specially trained agency personnel who
perform an in-depth analysis of a plant’s operations including a review of the plant’s compliance history, HACCP
plan(s), and general sanitation.

8     AUDIT REPORT 24601-0001-31
employees can monitor slaughter plant employees instead of FSIS inspectors.18 Though plants
entered into these cooperative agreements are supervised by State employees, USDA’s FSIS
ultimately holds final authority. Such plants are known as Talmadge-Aiken (T/A) beef slaughter
plants, and there are over 60 beef slaughter T/A plants in 9 States. Meat processed in T/A plants is
given the USDA mark of inspection.

In Phase 1 of our audit, we found that FSIS’ N-60 tests do not yield the precision reasonable for
food safety purposes. As part of designing its N-60 sampling program, FSIS has not determined
the prevalence of E. coli O157:H7, even though an adequate sampling method should begin with
this information. Moreover, given the likely low occurrence of E. coli O157:H7 in U.S. beef
trim, FSIS needs to collect more than the 60 pieces of beef it currently gathers from a production
lot before it can reasonably state if a production lot is contaminated or not. At present, if the
contamination level is very low, FSIS is more likely to miss contamination than to detect it. OIG
concluded that, whenever FSIS tests beef, its tests should be designed so that the American
public can have confidence in the results of those tests. OIG therefore recommended that FSIS
thoroughly reevaluate its sampling program for testing beef in order to effectively verify process
controls at beef processing plants across the nation. FSIS generally agreed with our findings and
proposed corrective actions in response to our recommendations.19

See Exhibit A to view photos showing examples of USDA personnel collecting and shipping
beef trim samples.

Objectives
During Phase 2 of our audit, OIG (1) observed the collection of beef trim samples by FSIS and
employees at slaughter and processing establishments; (2) analyzed whether the beef industry’s
sampling and testing protocols vary among plants and differ from FSIS standards; (3) reviewed
the quality of private laboratory services provided to the beef industry for testing and discarding
samples; and (4) examined whether test results are used by FSIS and the beef industry to
improve food safety.




18
   7 USC 450, “Cooperation with State agencies in administration and enforcement of laws relating to marketing of
agricultural products and control or eradication of plant and animal diseases and pests; coordination of
administration of Federal and State laws”.
19
   FSIS Sampling Protocol for Testing Beef Trim for E. coli O157:H7 (Audit No. 24601-0009-KC), issued February
2011.

                                                                       AUDIT REPORT 24601-0001-31              9
Section 1: Industry’s E. coli Testing

Finding 1: FSIS Needs to Provide Clear Guidance for How Industry Should
Respond to High Event Periods
Our work in our Phase 1 audit showed that FSIS’ N-60 testing, taken on its own, is insufficient to
serve as the primary way of detecting E. coli O157:H7 in beef. Instead, FSIS verifies the
implementation of industry’s testing for day-to-day surveillance of beef trim, as industry is able
to test beef trim thousands of times a day while FSIS, on average, tests only about five N-60
samples a day nationwide. Despite the fact that food safety is reliant on industry testing, the
agency has not issued detailed and sufficient guidance for defining industry’s plans for days
when plants receive multiple positive test results (otherwise known as “high event” periods) and
setting forth its expectations for how industry should react, including communicating with FSIS
and determining what additional product should be implicated as positive when the plant has
multiple positive test results.20 We found that all six plants we visited had high event plans in
place, but none of their plans resembled each other; they each contained different elements, and
responded differently to high event periods. For example, plants, at present, have very different
policies for determining how much beef is cooked or discarded based on multiple positive test
results. FSIS said it has not yet issued this sort of detailed and sufficient guidance because it is a
long and cumbersome process, and while the agency is developing guidance, it relies primarily
on the plants to determine when they have a spike in adulteration that requires a response.
Without the plant providing a detailed and sufficient plan for identifying and responding to a
high-event period, FSIS inspectors cannot adequately ensure the plant is responding
appropriately to breakdowns in its sanitary dressing procedures.

FSIS strongly encourages that plants test beef for E. coli O157:H7 using N-60. Though it does
not require that plants test in any particular way, the agency does provide the plants with
guidance. The plants follow this guidance and test trim for E. coli O157:H7, as they have a
vested economic interest in assuring that the meat they sell is wholesome and not subject to
recall. When a positive test result occurs, FSIS is responsible for verifying that the plant
implements the corrective action needed to resolve any problems at the plant and to monitor the
final disposition of any contaminated meat.

We found, however, that FSIS has not provided detailed guidance to plants concerning how they
should respond to “high event periods”—i.e., clusters of positive test results that could signal a
breakdown in the sanitary dressing procedures at the plant. Based on our visit to six plants that
are responsible for processing about 17 percent of the U.S. beef supply,21 we found a wide
variation in how these plants responded to a high event period:


20
   When a plant gets several positive test results, it has to determine what other untested or negatively tested meat
should be regarded as contaminated because a negative test result does not provide 100 percent certainty that the
sampled meat is E. coli free.
21
   The “big four” brands produce over 70 percent of the U.S. beef supply, and we visited a representative plant
(meaning the plant we visited used similar food safety safeguards and sampling techniques as other plants within the
same corporation) from each of the major corporate brands.

10      AUDIT REPORT 24601-0001-31
   ·   Plants defined a “high event” differently and had a different threshold for when the plan
       would be activated. One plant’s plan stated that the high event plan was triggered when
       there were three positive tests, but three other plants had no fixed number and relied on a
       complex mathematical model to determine when a high event was triggered.

   ·   Of the six plants, three had a detailed written method to determine how much beef was
       affected by any particular positive test. When the others had a positive test result, they
       subjectively determined how much beef was considered contaminated.

   ·   Of the six plants, one stated that it would proactively notify FSIS when it experienced a
       high event period. The other five made no mention, in writing, of their intent to notify
       FSIS.

   ·   Two of the plans included “enhanced testing criteria,” which involved additional testing
       during a high event period, such as testing at an N-90 level instead of an N-60 level and
       re-testing product that had already tested negative. The other four plans had no such
       enhanced testing methods.

   ·   Four of the plants have very detailed plans for investigating to determine the cause of the
       E. coli contamination, but the other two, to varying degrees, had vague procedures for
       determining the cause of the breakdown.

   ·   Two of the plants had very detailed plans for tracking the final disposition of the
       contaminated product, but the other four were less specific, or silent, about how to
       dispose of the product that had tested positive for E. coli O157:H7.

   ·   Of the six plants, two did not address, in detail, the need to safeguard contaminated
       product until it is destroyed or cooked. The other four plants’ plans stated that they
       placed product on hold when it tested positive for E. coli O157:H7.

OIG does not maintain that every plant’s plan for responding to high event periods should be
identical to other plants’ plans; however, we contend that each plant’s plan should address certain key
elements, and that the plan should have detailed written procedures for how the plant will
address these key elements when high events occur. Those written procedures should facilitate
FSIS inspectors verifying that plants are responding appropriately to breakdowns in the sanitary
dressing procedures at that plant.

Additionally, we found that plants were not always communicating with FSIS personnel so that
FSIS was aware of how the plants planned to respond to high periods. At two of the plants, FSIS
inspectors were unaware of what was addressed in the plant’s high event plan. At the advice of
the plant’s legal counsel, managers at one plant, in fact, had not provided the plan to FSIS and
refused to provide the plan to OIG, arguing that they were under no obligation to do so, as the
plan is not required by regulation. OIG maintains that this approach is not helpful for ensuring
that FSIS is able to monitor the plan and assure that the product passing through the plant is safe
                                                             AUDIT REPORT 24601-0001-31         11
for public consumption. FSIS agreed, and an FSIS national official stated that the plants have no
right to withhold this information from its inspectors.

By providing better guidance to plants about how they should develop their plans, and what
critical elements should be included, FSIS can also make the process more transparent from
industry’s perspective, as some plants, on their own, are not adequately responding to multiple
E. coli O157:H7 positives. For example, on September 30, 2011, a plant recalled about 80,000
pounds of beef that it had shipped after multiple positive test results. These test results should
have indicated a high event period. When FSIS became aware that the beef had shipped, the
agency conducted an investigation questioning sanitary procedures at the plant and suggested the
recall. OIG reviewed this plant’s high event period plan and found that it was vague concerning
how much beef would be considered contaminated by multiple positive test results. By being
more transparent about its expectations for high event period planning, FSIS can help plants
avoid this type of situation and also help protect consumers from contaminated beef products.

When we spoke to FSIS officials about these problems, they stated that they agreed that the
agency could provide clearer guidance to industry about the critical elements of an effective high
event period plan. They stated that they have been working on such guidance since before
October 2008, and that finalizing such guidance was a long and cumbersome process.

While OIG understands that this process can be lengthy, for clarity, we maintain that FSIS needs
to finalize this guidance, given the public health concerns raised by E. coli contamination.

Recommendation 1
Issue revised guidance to industry regarding the agency’s expectations for trim sampling and
how industry should plan for and react to high event periods. Include in the guidance specific
information on the critical elements to be included in a high event period plan and the necessary
support for the high event period criteria, such as how the plant may interact with FSIS staff, and
how the plant may determine what non-tested or negatively tested product should be considered
positive when the plant has multiple positive test results.

Agency Response
FSIS will issue revised guidance to beef slaughter and fabrication establishments that
manufacture beef trimmings on procedures they can use to assess the effectiveness of their
controls for preventing contamination during the slaughter operation. This document will
include guidance that establishments can use to determine whether they are experiencing a “high
event period” (HEP). HEPs are periods during which slaughter establishments experience a high
rate of positive results for E. coli O157:H7 (or STEC or virulence markers) in trim samples. The
guidance will recommend that establishments identify HEP criteria so that they can determine
whether they need to withhold product from commerce when a HEP has occurred because the
occurrence of a HEP may indicate more widespread adulteration of product, beyond the product
found positive. The guidance will explain that if establishments identify and respond to HEPs,
they will minimize the chance that they will release adulterated product into commerce. This

12     AUDIT REPORT 24601-0001-31
guidance will provide criteria establishments may use for determining whether they have
experienced a HEP. Establishments may use the criteria that FSIS has provided to define a HEP,
or they may develop their own criteria. As part of their supporting documentation for their
hazard analysis, the guidance will recommend that establishments document their criteria for
identifying a HEP. The guidance will recommend that establishments document their criteria for
identifying a HEP as part of their supporting documentation for their hazard analysis.

Furthermore the document will recommend that establishments conduct sampling and testing of
trim at a frequency sufficient to find evidence of contamination surviving the slaughter and
dressing operation. The document explains that establishments’ deviations from previously
obtained percent positive rates should be construed as presumptive evidence that the process is
out of control that would warrant an investigation to find and eliminate potential causes for
positive results. Furthermore, to prevent the occurrence of HEPs, the document recommends
more rigorous testing during the high prevalence season and effective slaughter and dressing
procedures to minimize, to the maximum extent practical, cross contamination of carcasses with
the contaminants from the hide and intestinal tract.

The document will also include actions that establishments should take during a high event
period. Generally, if primals are not commingled by stacking or storing in common containers
without individual separation before packaging, and the establishment minimizes cross
contamination among primals, an individual primal can be considered a microbiologically
independent lot. Normally, FSIS does not consider primal cuts designated for intact use to be
adulterated if contaminated with E. coli O157:H7. The guidance will explain that during a HEP
situation, unless the establishment has controls in place to ensure that the primals are not used for
non-intact purposes, such primals may be considered adulterated because they were prepared
under insanitary conditions. FSIS will be aware of establishment test results because FSIS
reviews establishment results on at least a weekly basis.

Estimated Completion Date: FSIS will issue the revised guidance no later than July, 2012.

OIG Position
We accept management decision.




                                                              AUDIT REPORT 24601-0001-31         13
Section 2: FSIS and Its Testing Methodology for E. coli

Finding 2: FSIS Needs to Consider Shifting More Resources to Sampling
Trim for E. coli
At present, each year FSIS collects and tests many more samples of raw ground beef than trim
(about 12,300 compared to 1,270 in 2011), even though data strongly indicate that positives are
more likely to be found in trim than raw ground beef. This occurred because, when FSIS began
testing beef for E. coli O157:H7 in 1994, it focused its efforts on raw ground beef. Only in 2007
did FSIS begin testing trim, acknowledging that “FSIS considers it extremely critical to keep the
percent positive rate22 for beef trim low in order to affect the percentage of positive raw ground
beef samples downward.” Essentially, by emphasizing the testing of trim, FSIS can more
effectively reduce the percent positive rate in ground beef, of which trim is a component. If
FSIS does not begin devoting more of its limited testing resources to testing trim, it will not be
using its collecting and testing capacity in ways that maximize its results, better promote public
health, and trace contamination problems to their source.

FSIS has the responsibility for testing raw ground beef and trim for E. coli O157:H7, but its
resources for collecting and testing samples are not unlimited.23 Consequently, the agency needs
to deploy those limited resources so that they are used as effectively as possible.

In 2011, we found that FSIS tested many more samples of raw ground beef than beef
trim—12,296 compared to 1,267.24 A recent study stated that trim testing has a higher
probability of finding E. coli O157:H7 than ground beef testing. E. coli O157:H7 most likely
contaminates the exterior surfaces of meat during hide removal or evisceration than interior
muscle mass. In the production of ground beef, both potentially contaminated exterior and
sterile interior tissues are combined, which dilutes any surface contamination as it becomes
spread through the entire volume of the ground beef.25

Although FSIS is aware that sampling trim is more effective, the agency has historically sampled
more raw ground beef for three reasons: (1) sampling trim is more difficult and time-consuming;
(2) FSIS has established a performance measure based on testing ground beef, but not trim;26 and
(3) agency officials are responding to the public’s expectation that it will test ground beef, as the
final product, for E. coli O157:H7. Agency officials stated that they do not want to suddenly
shift resources from one type of testing to another—they want to achieve an optimal balance

22
   The “percent positive rate” is the number of microbiological E. coli O157:H7 trim positive test results detected by
FSIS divided by the total number of trim tests analyzed by FSIS during a given period of time.
23
   Texas Food Industry, et al., v. Mike Espy, et al., Civ. No. A-94-CA-748 JN, U.S. District Court, West District,
Texas, Austin Division, December 13, 1994.
24
   Based on FSIS’ “Analysis of Raw Ground Beef and Raw Ground Beef Component Samples for E. coli O157:H7”
as of December 31, 2011.
25
   “Polymerase Chain Reaction Screening for Salmonella and Enterohemorrhagic Escherichia coli on Beef Products
in Processing Establishments,” Institute for Environmental Health, Inc., Lake Forest Park, Washington, May 11,
2011.
26
   FSIS Strategic Plan 2011-2016, p. 26.

14      AUDIT REPORT 24601-0001-31
between sampling costs and protecting public health. They also stated that the Agency needs to
continue to focus its testing on ground beef in order to reach its annual performance goals
outlined in its Strategic Plan.

However, there is a growing awareness within USDA that achieving an optimal balance between
keeping the costs of sampling low while promoting the public’s safety requires testing more trim.
Recently, the Secretary announced that USDA would begin testing for six additional strains of
 E. coli. Also, the Under Secretary for Food Safety stated that, as part of this testing, USDA
would begin testing only beef trim because beef trim testing yields “the best bang for the
buck.”27

OIG maintains that FSIS is likely, also, to achieve more “bang for the buck” if it increases the
trim testing it does for E. coli O157:H7. If the agency’s performance goals are creating an
obstacle for more effective testing, then the agency needs to consider revising those performance
goals and measures to better reflect a more effective approach to testing. FSIS might consider a
new performance measure for testing trim, or a revision that accounts for testing both trim and
ground beef.

Recommendation 2
Review the available scientific data and hold discussions with appropriate stakeholders to
determine if FSIS sampling resources could be better utilized and identification of E. coli
O157:H7 contamination could be improved if the agency devoted more of its sampling efforts to
sampling beef trim instead of ground beef. Shift resources, if needed, based on the scientific
data and discussions. Develop a detailed plan with milestones and timeframes for implementing
any proposed changes based on this review.

Agency Response
FSIS is making certain changes to its trim sampling program to make it risk based. In addition,
during this calendar year and next, FSIS intends to identify additional ways to make its testing
programs for E. coli O157:H7 more risk based, such as consideration of information available
through PHIS, from inspection program personnel, and from risk analyses. FSIS intends to
announce the changes in its trim sampling program in the Federal Register in the next 3-6
months and to ask for comment on the changes and other issues under consideration. Also, next
calendar year, FSIS intends to conduct a study to test product from unopened containers or purge
material (that is, remaining liquid, fat, and meat particles in containers or combo bins after trim
contents have been removed) from suppliers’ product for E. coli O157:H7. The purpose of this
study will be to identify the source of E. coli O157:H7 positive raw ground beef when material
from multiple suppliers was used to create the sampled ground beef that FSIS has found positive
for E. coli O157:H7. Furthermore, FSIS intends to change how Agency verification samples are


27
  Quotation taken from USDA Press Release No. 0404.11 titled: United States of America Department of
Agriculture Office of Communications Media Briefing By Secretary Vilsack USDA Takes New Steps to Fight E.
coli, Protect the Food Supply.

                                                                  AUDIT REPORT 24601-0001-31            15
scheduled such that FSIS can obtain on-going baseline prevalence information about select
pathogens such as E. coli O157:H7. In some cases, more samples may be necessary than those
currently analyzed in the verification testing program. FSIS recognizes that today the number of
samples analyzed is far less than the number of samples scheduled. As the scheduled-to-
analyzed rate improves through implementation of PHIS, the increase in the number of samples
needed for the baseline prevalence determination may be more closely matched. Finally, while
the focus of OIG was E. coli O157:H7, FSIS intends to begin co-analyzing all beef samples for
Salmonella over the course of the next few years. Ground beef samples, particularly, will
provide an indication of the level of process control for external contamination during slaughter,
as well as the internal contamination that may result from Salmonella in lymph nodes. Thus, the
issue of redirecting samples from the ground program to the trim program is complicated and
requires further analysis before making such a change.

Estimated Completion Date: FSIS will report on the progress of these reviews and discussions
and any resulting changes no later than April, 2013.

OIG Position

We accept management decision.

Recommendation 3
Work with appropriate officials inside and outside of FSIS to evaluate if the agency needs to
revise its performance measure for testing for E. coli to account for the advantage in testing beef
trimmings compared to ground beef. If agency officials determine that a revised performance
measure is needed, develop a detailed plan with milestones and timeframes for implementing the
new performance measure.

Agency Response

FSIS will evaluate the appropriateness of its Agency performance standards in the context of any
changes to sampling algorithms or sample allocations. If necessary changes are identified, FSIS
will develop proposed changes to the performance standards and elicit external input as
appropriate. FSIS will complete its review of public health and FSIS resource impacts to
performance standards before implementing any changes to sampling. FSIS intends to conduct
this review and identify any needed changes next calendar year.

Estimated Completion Date: FSIS will report on this evaluation and any resulting changes no
later than April, 2013.

OIG Position

We accept management decision.


16     AUDIT REPORT 24601-0001-31
Finding 3: FSIS Needs to Improve the Consistency in How Its Inspectors
Collect N-60 Samples
Based on our observation of FSIS inspectors and FSIS sampling data, we found that they
sampled trim inconsistently. For example, although inspectors are required to take samples that
weigh about 325 grams, they often took samples that were much larger. We found that about 95
percent of their samples exceeded 325 grams and about 50 percent exceeded 715 grams, which is
the maximum weight the labs will test. Dealing with these overweight samples taxes the
laboratory’s resources and dilutes the ratio of surface to interior tissue—the exterior is where E.
coli contamination is likely to be found. Inconsistencies of this sort occur because FSIS has not
adequately evaluated how inspectors perform their work to identify and address these types of
problems. If FSIS does not sample consistently, then N-60 may not be serving its intended
purpose of verifying that plants’ E. coli-preventing interventions are working as intended and
that FSIS is effectively monitoring the plants’ operations.

FSIS’ Directive 10,010.1, “Verification Activities for Escherichia coli O157:H7 in Raw Beef
Products,” generally sets out how inspectors should sample for E. coli in trim.

We found, however, a number of inconsistencies with how inspectors sampled trim:

       (1) Thickness and Weight of Sampled Trim

           Inspectors are instructed to sample pieces of trim that measure 1” x 3” x 1/8”. This
           process will provide a total sample weight of 325 grams +/- 10 percent.28

           Based on our review of FSIS data, we found that inspectors were not able to meet this
           standard: about 95 percent of their samples exceeded 357.5 grams, the maximum single
           sample weight,29 and about 50 percent exceeded 715 grams, which is the maximum total
           weight the labs will test. Excess sample weight must be trimmed and disposed of, adding
           inefficiency to lab testing procedures and no value to FSIS’ trim testing results. We
           noted at the plants that achieving the required sample size is often more difficult than it
           might seem. Inspectors often only sample about once a quarter, so they are not
           necessarily proficient. Also, we observed that it is difficult to cut material in combo bins
           and, in some cases, the meat in the combo bins is practically frozen. Given these
           conditions, inspectors were not easily able to cut a recommended sample size.

           This problem impacts the labs because they have to spend more time and resources
           manipulating these samples so they can be tested, which may also impair the validity of
           the N-60 sample itself. Dealing with such oversized samples also presents an opportunity
           cost in that the more time and resources the labs spend dealing with a large sample, the
           less time and resources they can spend on other tests or testing for other possibly lethal
           pathogens, such as Salmonella. Finally, an E. coli test is meant to focus on the exterior

28
     FSIS Directive 10,010.1 Rev 3 p. 93.
29
     Maximum single sample weight is 357.5 grams (325 grams plus 10 percent).

                                                                      AUDIT REPORT 24601-0001-31    17
        surface of trim, and especially large samples potentially interfere with that purpose by
        reducing the ratio of trim surface to interior sterile tissue.

        When we spoke to FSIS officials about this problem, they acknowledged the issue and
        stated that they were trying to devise a technological solution that would aid inspectors in
        sampling the proper sized samples from trim. For example, they are considering issuing
        plastic containers or bags to inspectors so that inspectors could take samples of only a
        limited size.

     (2) Selecting a random sample

        Inspectors are required to randomly select a day, shift, and time within the sample
        window, as well as from randomly selected containers.30

        We found, however, that inspectors we observed were often choosing not to sample on
        Fridays. FSIS data supported our observations. Out of the 678 samples we reviewed, the
        collection of samples on weekdays ranged from 110 to 191, but on Fridays only 35
        samples were taken. The following graph shows that inspectors were much more likely
        to sample on any day other than Friday, taking just 35 samples on Friday compared to an
        average of 161 the rest of the week: 31




        Inspectors chose not to sample on Friday due to the risk that samples might be delayed in
        shipping and therefore rejected by the labs due to improper sample temperature.

30
  FSIS Directive 10,010.1. Rev 3 Chapter II Section I.A.6 p. 14 and Section IV.A.2 p. 22.
31
  FSIS provided data on several N-60 sampling projects. OIG specifically reviewed those project codes listed as
“MT50.” (MT50 is the code for Routine Testing of Domestic Beef Manufacturing Trimmings.) We received data on
678 MT50 samples reported as being received from April 04, 2010 to December 07, 2011.

18      AUDIT REPORT 24601-0001-31
           Inspectors also refrain from testing on Friday out of courtesy to the plant because Friday
           sampling increases how long the sampled product must be held awaiting test results. Not
           only does this violate procedure and reduce the randomness of the sample, but it also
           permits plants to anticipate when an inspector is unlikely to test for contamination. One
           plant manager stated that he could predict when the inspection staff was going to select
           samples since he had observed their tendency over the years not to collect samples on
           Friday or at the end of a workday. OIG maintains that such predictability potentially
           interferes with the effectiveness of FSIS’ monitoring efforts, which may allow plants to
           become less diligent in their own testing regimens.

           We also noticed the following deviations from the random selection of samples at the
           plants we visited:

               ·    At one plant, the plant quality assurance manager selected the combo bin the
                    inspector would test;
               ·    At another plant, FSIS inspectors had a choice of selecting a combo bin from two
                    locations, yet they chose the majority of bins from the more accessible location.
               ·    At a third plant, the FSIS inspector selected only the trim that was going to be
                    ground inside the plant and excluded trim that was going to be ground externally.

           When we brought these issues to the attention of inspectors’ supervisors, they agreed that
           these practices did interfere with the randomness of the sample, and they took steps to
           correct the issues.

       (3) Multiple samples from a single piece of trim

           When FSIS inspectors sample a piece of trim, they are required to take 60 pieces of trim
           from 60 different pieces of beef product.32

           During our visits to the plants, we observed that FSIS inspectors at three plants took
           multiple pieces of trim from a single beef product. For example, one inspector was
           taking up to four pieces from a single product—he would take two long pieces from a
           single piece of trim and would divide them each into two, yielding four pieces. When we
           spoke to this inspector and his supervisor, they stated that they were unaware they were
           violating any FSIS procedure. This practice is problematic because it violates FSIS
           procedures and interferes with inspectors’ ability to verify the effectiveness of the plants’
           E. coli-preventing interventions.

           When we spoke to FSIS national officials about this practice, they agreed that inspectors
           should not be taking multiple pieces from a single beef product.




32
     FSIS Directive 10,010.1 Rev 3 Attachment 8 p. 93.

                                                                 AUDIT REPORT 24601-0001-31          19
FSIS provides training material and supervision to its inspectors on a regular basis. OIG
reviewed those training materials and found that they generally provided adequate information
for inspectors to learn N-60 sampling. However, inspectors have a great many responsibilities in
the plants, and perfecting their N-60 sampling technique may not always be a priority. OIG
maintains that in order for N-60 to be a rigorous testing methodology, FSIS needs to do more to
ensure that inspectors are performing the tests consistently.

Additionally, while we were visiting the plants, we noted that plant managers sometimes exploit
ambiguities in FSIS’ sampling policies or procedures so that they can avoid receiving
noncompliance records33 if FSIS inspectors find a positive E. coli O157:H7 test result. For
example, FSIS allows plants to avoid a noncompliance if they have a written policy in place to
send bins to cooking that FSIS samples from and finds E. coli.34 One plant quality assurance
manager told OIG that the plant had implemented a policy to send every bin to cooking that FSIS
samples, so that it could never receive a noncompliance due to FSIS’ testing results. OIG
maintains that FSIS should eliminate this policy ambiguity because noncompliance records
trigger more serious enforcement actions and require corrective action that would improve how
the plant controls E. coli. By allowing plants to routinely avoid them, FSIS is allowing plants to
sidestep regulation. Furthermore, FSIS regulations state that the agency is not to test product
destined for cooking,35 yet this ambiguity in policy means that, at that plant, all product FSIS
tests is being sent to cooking.

A second policy ambiguity involves FSIS allowing plants to avoid noncompliance if an FSIS test
and a plant test both result in a positive on a single sample.36 Plant officials at a plant we visited
explained they normally would not test trim that would be ground in its own establishment—the
plant waits to test the final ground product. However, when FSIS was present, we observed a
different procedure. The FSIS inspector took a piece of trim and cut it in two—one piece was
tested by the plant, the other by FSIS. The plant managers reasoned that, if both tests came back
positive, the plant would have found the problem as well and would not be issued a
noncompliance. OIG finds this practice objectionable because the plant is not following its usual
testing methodology and is instead doing something unusual in response to the presence of FSIS
inspectors in the plant. Furthermore, an FSIS inspector should not be taking samples that the
plant will test itself and claim the results as its own.

Moreover, for Salmonella, FSIS has taken exception to plants altering their ordinary operations
when FSIS is testing.37 OIG finds it inconsistent that plants would be penalized for altering their
operations when FSIS is testing for Salmonella, but not for E. coli.



33
   A noncompliance record (NR) is written by FSIS whenever inspection program personnel determine that an
establishment has failed to meet one or more regulatory requirements. Generally, if an FSIS trim sample tests
positive for E. coli O157:H7 and the establishment did not also find the product positive for E. coli O157:H7,
inspection personnel are to issue a noncompliance record to the plant.
34
   FSIS Directive 10,010.1 Rev 3 Chapter III Section III. C. p. 39.
35
   FSIS Directive 10,010.1 Rev 3 Chapter II Section I.A.9 p. 15.
36
   FSIS Directive 10,010.1 Rev 3 Chapter III Section III. B. p. 39.
37
   FSIS Notice 42-11.

20      AUDIT REPORT 24601-0001-31
OIG concludes that FSIS needs to take steps to address these policy ambiguities and ensure that
its own inspectors are following its guidance for consistently taking samples for N-60. If the
agency does not take these steps, then it runs the risk of introducing bias into the N-60 sampling
methodology and compromising the validity of N-60.

Recommendation 4
Reevaluate the policies for how inspectors collect trim samples, including the random selection
of product for sampling, collecting samples of proper weight, and not taking multiple samples
from single pieces of trim. Develop a detailed plan with milestones and timeframes for
implementing any corrective actions resulting from this agency reevaluation.

Agency Response

FSIS will issue instructions for collecting samples of the proper weight no later than August
2012. FSIS will evaluate the current instructions, identify any necessary changes, and reissue the
directive during calendar year 2013.

Estimated Completion Date: FSIS will report on this reevaluation and any resulting changes no
later than April, 2013.

OIG Position

We accept management decision.

Recommendation 5
Reevaluate noncompliance policy ambiguities in FSIS Directive 10,010.1 and revise agency
procedures to ensure that industry is not avoiding regulatory action. Develop a detailed plan
with milestones and timeframes for implementing any corrective actions resulting from this
agency reevaluation.

Agency Response

FSIS will evaluate the current instructions, identify any necessary changes, and reissue the
directive.

Estimated Completion Date: FSIS will reissue the directive no later than April, 2013.

OIG Position

We accept management decision.



                                                             AUDIT REPORT 24601-0001-31         21
Finding 4: FSIS Needs to Better Communicate with State Meat Inspection
Agencies and Small Plants
Responsible for a relatively small portion of the U.S. beef supply, less than 1 percent, T/A plants
are a type of plant that is not regulated directly by FSIS but by State regulatory agencies.38
During our fieldwork, we visited one T/A plant in Utah, and found that the State agency was not
issuing the plant noncompliances for serious deficiencies in the plant’s sanitary dressing
procedures. These deficiencies included not documenting temperature violations and not
properly spacing carcasses in the coolers. These problems occurred because FSIS was not
effectively communicating its standards and guidance and was conducting only sporadic
oversight of the State agencies. FSIS officials stated that they were unaware of these problems
and were very concerned that T/A plants may merit increased oversight. Unless FSIS takes
action to strengthen its oversight, sanitary problems at these plants may continue to go unnoticed
and thus uncorrected.

The Federal State Cooperative Act, known as Talmadge-Aiken, authorized the Secretary of
Agriculture to enter into cooperative arrangements with State departments of agriculture and
other State agencies to regulate and perform inspections of certain slaughter and meat processing
plants. FSIS provides oversight of these State agencies.

Based on our visit to one T/A plant in Utah, however, we found that State inspectors were not
identifying sanitary problems at the plant that warranted the issuance of noncompliances. For
example, we observed that State inspectors did not note and issue a noncompliance for the
following issues:

       ·   The plant was not maintaining and recording the temperature in one combo bin at
           acceptable levels according to the plant’s standard operating procedure. We observed
           that plant employees took the temperature and, if the temperature was too high, they
           would not record the deviation and would simply wait until later to take the temperature
           again. Once the temperature was within the acceptable range, they then recorded that
           result. The State inspection staff did not notice that this was the plant’s process.

       ·   The plant was jamming carcasses together into the hot box, which reduces how quickly
           carcasses cool and increases the possibility of pathogen growth, which violates the
           plant’s standard operating procedure. The plant’s quality assurance manager said that we
           observed the hot box at break time and that the plant employee who normally handles
           carcass spacing was on break and in his absence the carcasses piled up.

When OIG brought these issues to the attention of the State inspection staff, they began
immediately issuing noncompliances. They explained that they had not noticed the relevant
violations. We also observed plant violations that were serious, but that did not rise to the level
of a noncompliance. State inspectors should have noticed and corrected the issues, but we found
that they did not. For example:


38
     These T/A beef slaughter plants operate in nine States.

22         AUDIT REPORT 24601-0001-31
   ·   The plant should collect trim samples weighing 375 to 420 grams, yet they sometimes
       took overweight samples weighing as much as 560 grams. The quality assurance
       manager said that when the samples are overweight he reduces the sample weight by
       trimming the sample or discarding pieces. OIG maintains that these actions add bias to
       the sample.

   ·   The plant tries to process combo bins weighing 2,100 lbs, but when the combo bin
       weighed more, they sampled the bin, removed extra beef, and then put the excess in the
       following bin. This practice is problematic because it involves moving beef from bin to
       bin after sampling, which could invalidate the tests, and increases the chances of cross
       contamination. Plant officials noted that this was not plant policy and that employees
       would be instructed to correct their actions. The quality assurance manager stated that it
       is plant policy to weigh the combos first and obtain the correct weight before the plant
       collects its trim sample.

   ·   The plant was not using the forms in its standard operation procedures when employees
       monitored chilling carcasses and combo temperatures. These procedures are important to
       prevent pathogen growth in processed beef.

Finally, we found that the State inspection staff made a number of errors when they collected
samples:

   ·   The inspector lost count and collected 75 pieces for the N-60 test, and the sampled pieces
       were overweight, weighing 885 grams instead of 325 grams required by the guidance.

   ·   The inspector allowed the plant quality assurance manager to select the combo bin that
       inspectors would sample—it was not selected at random.

   ·   The inspector collected multiple samples from a single piece of trim.

When we brought these problems to the Utah meat inspection agency, it immediately
acknowledged the seriousness of the issues and developed supplemental sampling instructions
that would help the inspection staff better perform their duties. FSIS officials at the national
office also expressed concern that T/A plants were not being better monitored and the State
agencies might need additional oversight on FSIS’ part.

We also found that the operators of small plants often lacked the expertise they needed to select
laboratories that were able to competently test samples for E. coli O157:H7. Generally, the six
plants we reviewed contracted with accredited laboratories, but one was using a non-accredited
laboratory to perform some of its testing. Industry representatives explained that many small
plants wanted to utilize an accredited laboratory, but they do not know what type of laboratory
accreditations they should be looking for when they select a laboratory services provider. Small
operators sometimes relied on laboratories based on convenience, or other factors, instead of the

                                                             AUDIT REPORT 24601-0001-31            23
quality of the testing. For example, we were told that one operator selected a laboratory based
on proximity, not based on its competence. Another plant decided to switch from one laboratory
to another and, by doing so, increased its confirmation rate for positive E. coli O157:H7 testing
results from 24 percent to 95 percent.

Not only do small operators need guidance on how to select quality laboratories, but they also
need guidance on what documentation they should maintain for FSIS’ inspectors. Small
operators could benefit from being given a checklist regarding what documents FSIS looks for
when it performs a food safety assessment so the plants can have documentation on hand to
support their HACCP system.

When we raised these issues with FSIS national officials, they stated that they could do more to
educate small plant operators about what qualities they should be looking for in a laboratory.
FSIS officials informed us that they were developing guidance for selecting commercial and
private microbiological laboratories for testing.39 The guidance contains a checklist of
documents FSIS looks for when it performs a food safety assessment. OIG believes that this
guidance will be helpful, especially for small plants.

OIG concluded that FSIS needs to take steps to improve how it oversees State agencies and
communicates with small plants. Those steps should include an assessment of the general state
of sanitary procedures at T/A plants and a determination of whether additional FSIS oversight
and communication are necessary. As a result of the concerns raised by OIG, FSIS officials
indicated that they intended to perform their own internal review to determine if T/A plants
warrant increased oversight.

Recommendation 6
Develop a detailed plan with milestones and timeframes to determine whether the quality of
inspection in T/A plants is such that there is an increased possibility of E. coli contamination in
the products that these plants produce. Based on this evaluation, determine if additional FSIS
oversight and communication are needed at T/A plants and State inspection agencies. If so,
determine what type of oversight and communication are needed and how they will be provided.

Agency Response

FSIS will develop a detailed plan with key milestones and schedules to determine whether the
quality of inspection in T/A plants is such that it increases the possibility of E. coli
contamination in the products that the plants produce. Based on the findings, FSIS will develop
a corrective action plan to address any weaknesses in the management controls, monitoring, or
communications.




39
 FSIS’ draft “Compliance Guidelines Guidance for Establishments on Selecting a Commercial or Private
Microbiological Laboratory,” which is in Agency clearance for issuance in Spring 2012.

24      AUDIT REPORT 24601-0001-31
Estimated Completion Date: FSIS will complete the evaluation by August 2012 and the plan of
action to address weaknesses no later than April 2013.

OIG Position

We accept management decision.

Recommendation 7
Improve communication by issuing guidance to industry to assist plants in selecting laboratories
based on the capabilities of the testing laboratories. This guidance should provide a checklist for
industry on the issues to consider and also the type of documents that plants should maintain to
support their testing program.

Agency Response

On March 8, 2012, FSIS announced the availability of policy guidance for federally inspected
establishments in the selection of commercial and private microbiological testing laboratories.
FSIS has posted this policy guidance on its Web page
http://www.fsis.usda.gov/Regulations_&_Policies/Compliance_Guides_Index/index.asp#Micro.
FSIS encourages establishments that prepare meat, poultry, or processed egg products to follow
the criteria in the guidelines in selecting commercial or private microbiological testing
laboratories and in determining their capability to provide accurate and reliable results. The
guidance includes a checklist for industry on the issues to consider and also the type of
documents that plants should maintain to support their testing program.

OIG Position

We accept management decision.




                                                             AUDIT REPORT 24601-0001-31         25
Scope and Methodology
In November 2009, OIG received a Congressional request to evaluate the scientific merits and
potential shortcomings of N-60 sampling design and the application of the test results from N-60
samples of beef trim products.

The request posed 12 questions in three broad areas that categorized “the statistical validity of
the test; the sample collection and analysis; and the application of test results.” OIG agreed to
conduct a two phase audit of FSIS’ N-60 sampling. In the first phase, we examined the
adequacy and effectiveness of the sampling method and also follow up on matters reported in a
previous OIG memorandum, dated January 29, 2008. In the OIG memorandum, we suggested
that FSIS consider (1) pursuing the feasibility of gathering a more representative sample; (2)
developing appropriate processes to minimize or eliminate discarded samples; and (3)
determining if more efficient sample collection and testing procedures can be implemented to
minimize the turnaround time on laboratory results.

We released our first phase audit report in February 2011. That report fully addressed five of the
requested questions. In the second phase of our work, we are answering the remaining seven
questions. See Exhibit B for a list of the seven question and our answers.

In order to meet our audit objectives, we visited plants and conducted interviews with industry
stakeholders. Among those visited were:

     ·   FSIS District Offices—We discussed E. coli issues with FSIS district offices to learn
         about their communication with the national office and their outreach with the plants.

     ·   FSIS National Office Representatives—We discussed E. coli issues with FSIS officials
         from numerous offices, listed below. The team communicated with these officials on
         numerous occasions through email, teleconference, and face-to-face interviews.

         §   Office of Field Operations: We conducted interviews with senior-level officials who
             manage the national inspection and enforcement activities.

         §   Office of Outreach, Employee Education and Training: We conducted interviews
             with officials at this organization who oversee FSIS outreach and education services.

         §   Office of Program Evaluation, Enforcement and Review: We conducted interviews
             with officials who assess FSIS’ program functions and operations. We interviewed
             representatives from the Program Evaluation and Improvement Staff who provide
             leadership and technical expertise in the area of program evaluation.

         §   Office of Public Health Science: We conducted interviews with senior-level officials
             who provide expert scientific analysis, advice, data, and recommendations on all
             matters involving public health and science that are of concern to FSIS. During the
             first phase of the audit, we spoke with officials at the Regulatory Field Services

26       AUDIT REPORT 24601-0001-31
             Laboratory in Athens, Georgia, who support FSIS’ farm-to-table food safety
             strategies at three field laboratories which conduct scientific tests in the disciplines of
             chemistry, microbiology, and pathology.

         §   Office of Policy and Program Development: We conducted interviews with senior-
             level officials who provide leadership in the identification of policy needs, develop
             policy solutions to address the intent and application of verification and enforcement
             policy in plant activities, and provide direct technical support to FSIS field personnel.

     ·   Private Laboratories—We discussed E. coli issues with an expert on the trim sample
         collection who was a former directing scientist at an Agricultural Research Service
         facility where work is done on issues relevant to E. coli. We also interviewed various
         representatives of private laboratories.

     ·   Large Industry Representatives—A meeting was held with industry representatives to
         discuss industry’s position on N-60 sampling.

     ·   Large and Medium Size Plants—We conducted fieldwork in four large-sized and two
         medium-sized plants to gain not only industry’s perspective from the field, but also the
         perspective of FSIS field inspectors. We visited plants in Kansas, Minnesota, Nebraska,
         and Utah. Because four of these plants were owned and operated by large corporations,
         we viewed the trim sampling methods used in plants that slaughter about 70 percent of
         the nation’s cattle.

     ·   Online Articles and Blogs—We reviewed sources such as www.foodsafetynews.com
         and www.meatingplace.com to stay current on relevant industry issues.

     ·   Small Processor Groups—We conducted interviews with representatives from smaller
         plants to learn their perspective concerning FSIS outreach, product testing, and other
         issues. We interviewed representatives of Niche Meat Processors Association Network
         and American Association of Meat Processors.

     ·   Small Size Plants—We discussed E. coli issues with two small plants to both verify the
         claims of the small group processors and learn of FSIS outreach and policy
         implementation from the perspective of small plants operators. We visited two plants in
         Missouri that FSIS designated as “small or very small.”40

     ·   FSIS Electronic Data Sources—We examined FSIS electronic data sources not only to
         gain further understanding of the data, but also to inspect for anomalies within the data.
         We did not validate the accuracy of FSIS’ electronic data.

Our audit field work was conducted from February 2011 to December 2011.

40
  FSIS defines “small” plants as having 10-499 employees and “very small” plants as having less than 10
employees. Both size plants must also have annual sells less than $2.5 million.

                                                                      AUDIT REPORT 24601-0001-31          27
We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




28     AUDIT REPORT 24601-0001-31
Abbreviations
CFR ............................. Code of Federal Regulations
E. coli .......................... Escherichia coli O157:H7
FMIA........................... Federal Meat Inspection Act
FSIS............................. Food Safety Inspection Service
HACCP ....................... Hazard Analysis and Critical Control Point
OIG ............................. Office of Inspector General
T/A plants.................... Talmadge-Aiken plants
USDA.......................... United States Department of Agriculture




                                                                AUDIT REPORT 24601-0001-31   29
Exhibit A: Photographs of OIG’s Fieldwork




Photo 1                                      Photo 2

Example of the size of a 2,000 pound combo   Trim can be small irregular cuts of meat.
bin of trim.




Photo 3                                      Photo 4

Trim can also be large whole muscles.        Example of an FSIS inspector collecting a
                                             piece of trim for an N-60 sample.




30     AUDIT REPORT 24601-0001-31
                                             Photo 6
Photo 5
                                             These sample pieces were collected by an
FSIS template showing the size of one
                                             FSIS inspector; inspectors often cut the
sample piece the inspector was expected to
                                             individual pieces too thick.
collect for FSIS’ N-60 trim sample.




                                             Photo 8
Photo 7
                                             The N-60 sample pieces in a box just prior
The N-60 sample pieces in a sanitary pack
                                             to shipping.




                                                    AUDIT REPORT 24601-0001-31        31
Exhibit B: Response to Congressional Request for Information
Regarding FSIS’ E. coli O157:H7 Testing
The audit request on November 12, 2009, from the Chairwoman of the Subcommittee on
Agriculture, Rural Development, Food and Drug Administration, and Related Agencies of the
House Appropriations Committee posed a number of questions which we answered in Appendix
A of our Phase 1 report. In seven of those responses, we stated that we would perform additional
work related to the question during Phase 2 audit fieldwork. What follows are our responses in
these seven areas. We have bolded the material that is unique to Phase 2 of our audit.

     1.    What is the definition of a product “lot” used in the N-60 testing and how was this
          definition determined? How is this definition applied to individual processing
          establishments? Is this an appropriate application?

          In our Phase 1 audit, we reported that:

          FSIS allows processing plants to define a “lot.”41 In defining lots, plants may consider a
          wide range of factors, including (a) any scientific, statistically based sampling program
          that the establishment uses to distinguish between segments of production; (b) standard
          operating procedures or other prerequisite programs used to control E. coli cross-
          contamination between raw beef components during production; (c) processing
          interventions; and (d) beef trimmings and raw beef components or rework carried from
          one production period to another. In the past, plants were allowed to define a lot as the
          beef trim produced from one clean up to the next clean up—often a full day’s production.
          However, according to FSIS, clean up to clean up alone is no longer a supportable basis
          for defining a lot.

          According to FSIS officials, most large producers of beef trim define a lot as either one
          2,000 pound combo-bin or multiple combo-bins (generally five combo-bins with a total
          weight of 10,000 pounds).42 FSIS generally defines its sample lot to match the
          establishment’s lot size. However, FSIS may permit an establishment that routinely
          samples its products under its own testing program to reduce its lot size on the day that
          FSIS conducts sampling, which allows it to hold less product until FSIS test results are
          returned. These plants must support their sampling program, define their lots
          microbiologically using sample data, and conduct robust sampling throughout the day to
          support lot sizes of less than one day’s production.

          According to Hazard Analysis and Critical Control Point (HACCP) principles it is
          appropriate for companies to define their lot size because HACCP dictates that the
          establishments are themselves responsible for governing the factors that affect their
          production. Industry and FSIS officials are generally supportive of this principle. Under

41
   FSIS Directive 10,010.1, dated March 2010, states that “[t]he establishment is responsible for defining the
sampled lot.”
42
   A combo-bin for OIG’s purposes is defined as a 48 inch x 40 inch x 40 inch size container of beef carcass
trimmings.

32        AUDIT REPORT 24601-0001-31
   HACCP, the plant determines the lot size through its hazard analysis. Whatever the plant
   decides, FSIS expects that the plant uses a scientific basis to meet the premise of
   HACCP, and FSIS inspectors are expected to verify that they have done so.

   OIG agrees that a plant should use a scientific basis to support its defined lot size, and
   FSIS inspectors should verify it meets the premise of HACCP.

   In Phase 2, we observed and analyzed this area further and found that FSIS allows
   processing plants to define a “lot.” We discussed with industry the rationale for
   how operators define a “lot” and we also observed how the “lots” were sampled by
   FSIS and the plants. We concluded that because of the many variables, it is not
   feasible for FSIS to establish a standard lot size for industry’s trim sampling
   program (i.e., a one size fits all approach).

2. Are all samples collected, stored, shipped, and analyzed by trained FSIS employees?

   In our Phase 1 audit, we reported that:

   Trim samples are collected by employees from both FSIS and industry. FSIS personnel
   collect all of the pieces of trim FSIS needs for its regulatory samples and the industry
   employees collect their own trim samples for testing. FSIS officials stated that all its
   field employees including inspectors in charge, frontline supervisors, and public health
   veterinarians are trained to properly collect, store, and ship FSIS samples.

   FSIS’ E. coli testing is performed at the agency’s internationally accredited laboratories
   and the analysis is conducted by competent scientific personnel who have been certified
   to test for E. coli O157:H7.

   In Phase 2 of our audit, we performed additional work to verify how samples are
   collected, shipped, stored, and analyzed by industry and FSIS and whether FSIS
   needs to establish standards for industry to follow when conducting trim sampling.

   Our fieldwork in six slaughter plants disclosed concerns with how industry collected
   and prepared trim samples for shipment (see Finding 4). Our review found no
   adverse issues regarding how these plants stored their samples or how their
   laboratory service providers analyzed the trim samples. Our observations of the
   trim samples collected by FSIS and the Utah State meat inspection staffs at these six
   slaughter plants identified concerns related to how the N-60 samples were collected
   and shipped (see Findings 3 and 4). The audit found no adverse issues regarding
   how the inspection staffs stored their samples. Further, our review showed that
   public safety would probably be improved if FSIS more clearly defined its
   expectations for how industry should plan to respond to high event periods. FSIS is
   not providing detailed guidance to plants concerning how they should respond to
   “high event periods”—i.e., clusters of positive test results that could signal a
   breakdown in the sanitary dressing procedures at the plant. By providing better
   guidance to plants about how they should develop their plans, and what critical

                                                         AUDIT REPORT 24601-0001-31             33
        elements should be included, FSIS can improve how industry responds to periods
        when a plant experiences multiple E. coli positives (see Finding 1).

     3. Are laboratories instructed to reject samples that do not meet minimum quality
        standards? If so, what are those minimum quality standards? How is it assured each
        sample meets them?

        In our Phase 1 audit, we reported that:

        We confirmed that FSIS laboratories have developed internal procedures for discarding
        samples that do not meet minimum quality standards. When samples are received at the
        laboratory, to assure that each sample meets all the minimum quality standards, the
        laboratory technician inspects and documents the condition of the container, shipping
        seals, accompanying paperwork, and product. A temperature is then taken of the product
        and the sample information is entered into the automated laboratory tracking system,
        which includes any applicable information on why a sample was rejected. Laboratory
        procedures list over 30 reasons and sub-reasons why a sample might be rejected
        (including temperature, target tissue not received, no form received with sample, sample
        security seal problem, and sample container leaking).

        In Phase 2 of our audit, we performed additional work related to verifying the
        procedures used in the laboratories selected by industry and evaluating whether
        FSIS needs to establish standards for industry to follow when performing trim
        testing.

        Our audit found that the private laboratories used by five of the six slaughter plants
        were accredited by recognized bodies. In the sixth case, the facility used a non-
        accredited in-house laboratory to do a small amount of its testing (less than 10
        percent) and the remainder of the plant’s testing was done by accredited
        laboratories. The laboratories provided documentation to show that they had
        written laboratory procedures, which included policies for rejecting samples that
        were not in an adequate condition for testing and for conducting sample testing.
        Our work did not find that FSIS needed to set standards for laboratory service
        providers to meet but rather that the slaughter industry would benefit if FSIS issued
        guidance regarding what industry should be looking for in a laboratory services
        provider and what type of documentation plants need to maintain to support the
        testing their laboratory performs when FSIS performs a food safety assessment or
        other regulatory review (see Finding 4). We found nothing during this audit that
        would indicate that the procedures used by these private laboratories were not as
        stringent as those testing standards that are followed at FSIS’ laboratories.

     4. Are the minimum standards associated with sample collection, storage, shipment, and
        analysis adequate? What type of testing standards must be met by laboratories analyzing
        the samples?

        In our Phase 1 audit, we reported that:

34      AUDIT REPORT 24601-0001-31
        FSIS has provided direction to inspection personnel for such responsibilities as collecting
        and submitting samples and acting on a positive FSIS test result. FSIS laboratories must
        also follow procedures that outline the minimum standards that samples must meet and
        that address issues like test methods, the receipt of samples, logging samples in, shipping
        them, and training staff. During Phase 2 of our audit, we will examine whether FSIS
        inspection personnel are following FSIS sampling procedures and assess their adequacy.

        FSIS laboratories that analyze E. coli samples are accredited.43 However, there is
        currently no legal or other requirement that FSIS laboratories obtain any accreditations.
        The International Standards Organization specifies the general requirements for a
        laboratory to demonstrate its competence to carry out tests. The requirements are
        applicable to all organizations that perform tests or calibrations. The accrediting body is
        the American Association for Laboratory Accreditation, which is a public service
        membership organization dedicated to operating a nationwide, broad spectrum laboratory
        accreditation system. Further, we confirmed that the American Association for
        Laboratory Accreditation conducts yearly external audits of FSIS’ laboratories, and FSIS
        conducts its own internal audits to assure that the laboratories are following the
        accrediting body’s, and the laboratory’s, own policies and procedures.

        In Phase 2 of our audit, we examined whether FSIS inspection personnel are
        following FSIS sampling procedures. We also identified and examined the testing
        standards followed by private laboratories doing E. coli O157:H7 testing for the
        beef industry to determine if the testing standards are as stringent as those followed
        by FSIS and whether FSIS needs to set minimum standards for private laboratories
        to follow. We discussed these areas in detail in our answers to questions 2 and 3
        above.

     5. Has FSIS established a protocol for reassessing an establishment’s HACCP plan based
        upon N-60 test results? What actions are taken at an establishment after a positive N-
        60 test result?

        In our Phase 1 audit, we reported that:

        FSIS is responsible for verifying that slaughter and processing establishments implement
        food safety systems that comply with HACCP regulations. FSIS has established
        procedures for what actions should be taken after an FSIS positive E. coli O157:H7 test,
        including reviewing the establishment’s HACCP plan, by specially trained personnel
        during a food safety assessment.

        After a positive FSIS test result, FSIS staffs are instructed to (1) collect supplier
        information;44 (2) review establishment testing results; (3) verify disposition of affected

43
  “Accreditation” is a formal recognition of competence that a laboratory can perform specific tests.
44
  With the issuance of FSIS Notice 58-10, FSIS is now collecting supplier information at the time of sample
collection.

                                                                      AUDIT REPORT 24601-0001-31              35
        product; (4) conduct follow-up sampling at the establishment and its suppliers; (5)
        conduct verification activities at the supplying establishment; (6) conduct a food safety
        assessment45 at the establishment, and (7) take enforcement actions if warranted.

        HACCP also requires that after a positive FSIS or industry test result, the establishment
        should use its own testing information to identify failures in its controls, take appropriate
        corrective actions, and reassess its HACCP plan, if applicable. For example, after a
        positive test result at one establishment, it was determined that an antimicrobial
        intervention had inadvertently been turned off and needed to be restarted. However,
        according to FSIS officials, there are circumstances in 9 Code of Federal Regulations
        417.3 that if an establishment has already addressed E. coli in its HACCP plan, it may not
        have to reassess the plan in response to a positive test result.

        In Phase 2 of our audit, we performed additional work to determine what actions
        FSIS and industry actually take after an E. coli O157:H7 positive to ascertain
        whether FSIS and industry are taking the proper actions after a positive test result.

        We found that when a plant has a positive test result the plant may have one
        isolated positive at a time or the plant may experience clusters of 7, 15, 48, or more
        positives in one day. We noted that when a large slaughter facility has a positive E.
        coli test result, plant personnel (1) review their monitoring records; (2) determine
        what product might be affected (positive, negative, and non-tested product);
        (3) perform an investigation to attempt to find the cause of the contamination; and
        (4) arrange for appropriate disposition of the affected product and if applicable
        implement appropriate corrective actions to prevent the contamination from
        reoccurring. When the FSIS staff is made aware of a positive E. coli test result at a
        slaughter plant, they (1) perform a review of the plant’s monitoring records; (2)
        review the plant’s investigative documents; (3) monitor that the affected product
        was properly disposed of; and (4) monitor the plant’s corrective actions, if
        applicable. In general, we found that industry and FSIS are taking appropriate
        actions when there is a positive E. coli test result; however we did identify some
        issues of concern relating to how plants plan for high event periods and how they
        communicate with FSIS regarding such events (see Finding 1).

     6. How are the FSIS N-60 test results and the establishment’s N-60 test results correlated?
        How do N-60 testing protocols differ between FSIS and the industry?

        In our Phase 1 audit, we reported that:

        According to agency procedures, when FSIS finds product to be E. coli positive, the
        inspection staff issues a noncompliance record, which requires the establishment to

45
  A comprehensive Food Safety Assessment considers all food safety aspects that relate to the establishment and its
products, the nature and source of all materials received, the establishment’s processes, and the environment of the
establishment. The Food Safety Assessment is designed to examine the validity of the Sanitation Standard
Operating Procedures, pre-requisite programs, testing programs, and any other programs that constitute the
establishment’s HACCP system.

36      AUDIT REPORT 24601-0001-31
review its control procedures and take corrective actions. The only time a noncompliance
report is not issued when FSIS finds a positive is when the company simultaneously
conducted a test and its test also showed a positive result, in which case the product
should have been destroyed or fully cooked. Establishments with a program to routinely
divert all FSIS-tested product to cooking would not receive a noncompliance report, as
well. Further, the inspectors are to ensure that the product was disposed of properly.

In contrast, FSIS procedures do not allow for prompt correlation of plant testing results
with FSIS test results or observation of disposition of E. coli positive product. According
to FSIS officials, establishments are required to create a record of the positive in their
HACCP system, to which FSIS has full access. However, plants are not required to
notify FSIS of positive test results when they occur. FSIS procedures only require
company test results be made available to FSIS inspectors, and that the results be
reviewed by inspectors on a weekly basis.

FSIS has established N-60 testing protocols for its inspectors in FSIS Directive
10,010.1. However, FSIS has not defined what constitutes agency-approved
N-60 sampling methods and has no requirement that industry follow any specific
methodologies or standards for collection, storage, or shipping. During Phase 2 of our
audit, we will review how industry sampling and testing protocols vary among plants and
differ from FSIS standards.

In Phase 2 of our audit, we performed additional work to identify and examine the
sampling methodologies followed by industry to determine how FSIS and industry
utilize testing results and whether improvements can be made in how the testing
results are used.

Our review disclosed that the N-60 trim testing methods used by industry and
FSIS sometimes vary; nonetheless, the trim test results are still used by industry
to improve their slaughter operations. The slaughter plants we visited did
various kinds of testing for organisms like Salmonella, generic E. coli, and E. coli
O157:H7. We observed industry using these data to proactively spot potential
problems (one establishment developed a plant sanitation index) and to narrow
down the sources of contamination (for an area of the plant or meat from a specific
location on the carcass). FSIS and the Utah State meat inspection staffs monitored
plant testing results at least weekly and followed up with plant management on any
obvious adverse trends or positive test results that were noted.

Our review at six large slaughter plants showed that all of the plants had
implemented a trim sampling program; however, only two of the systems exactly
paralleled FSIS’ N-60 trim sampling system. FSIS’ N-60 trim sampling method
collects 60 small piece samples from 60 larger trim pieces in the plant’s production
lot (generally a lot is from one to five combo bins). FSIS inspection staff uses a hook
to secure the trim and a knife to remove the sample. The six plants we visited used
various methods to collect their trim samples:



                                                     AUDIT REPORT 24601-0001-31        37
        ·    When collecting their samples, four of the plants used a knife or sharpened
             metal ruler to collect the sample, while the other two plants used a handheld
             drill and bit. In one of these plants the bit was short and it was used to remove a
             quarter-sized hole from the surface of the trim. At the other plant, the bit was
             several feet long and it was inserted deep into the combo to collect trim material.

        ·    The trim sample at two of the six plants contained 60 pieces—the same as FSIS.
             Depending on the circumstances, three of the other plants collected 60 pieces, 75
             pieces, or 90 pieces. The sixth plant did not base its sampling on the number of
             pieces at all but instead based its sampling on collecting at least 150 cubic
             centimeters of meat. FSIS accepted all of these different methods.

        We observed all of these trim sample collections in operation and found that they all
        had advantages and disadvantages. The fact that some of the plants used a trim
        sampling method that differed from FSIS’ N-60 does not mean that these systems
        were superior or inferior to the system used by FSIS—there is no set industry
        standard. Downstream processors,46 however, should be cognizant that, when a
        slaughter plant represents that it sampled its product for E. coli O157:H7, the trim
        may have been sampled very differently than the method used by FSIS to collect its
        regulatory samples. Downstream processors should become familiar with their
        suppliers’ sampling method so that they can logically evaluate their level of
        confidence in the trim suppliers’ testing results.

     7. What are the implications of the USDA label associated with a negative N-60 test?

        In our Phase 1 audit, we reported that:

        The purpose of providing a USDA-approved testing label on product containers would be
        to give receiving establishments information regarding the testing of raw ground beef
        components for the presence of E. coli. Industry and FSIS have differing thoughts on the
        issues surrounding labeling of N-60 trim. Industry officials believe that this label will
        provide receiving establishments with necessary information regarding the testing of raw
        ground beef components in lieu of a certificate of analysis when a certificate does not
        accompany tested products sold through a distributor. FSIS officials believe grinders
        would assume that there is no risk in any labeled trim they are buying, and FSIS does not
        want to encourage this assumption since grinders have an obligation to sell final product
        that is not contaminated with E. coli.

        In Phase 2 of our audit, we determined if industry is currently labeling the product
        it tests. We found that industry does not place any specific labels on trim product
        that indicate that it has tested negative for E. coli O157:H7. Based on our

46
   For OIG’s purposes “downstream processing” refers to smaller processors that acquire beef products from larger
slaughter establishments, brokers or other processors and further prepare them for retail customers or consumers.
For example, this could be a small establishment that grinds whole cuts of beef and trimmings into hamburger for
sale in their local area.

38      AUDIT REPORT 24601-0001-31
discussions with industry and FSIS, we found varying opinions. Some believed that
there was a chance of mislabeling or errors, and that there was a risk of placing
untested product in labeled containers. Others worried that a label might give the
user a false sense of the product’s true safety and discourage downstream plants
from taking appropriate measures to ensure the safety of the product. Those
representing the interests of smaller processors indicated that a label would relieve
problems of a certificate of analysis following the tested product downstream and
give the small processors some assurance that the product has been tested.

FSIS officials believe grinders would assume that there is no risk in any labeled trim
they are buying, and FSIS does not want to encourage this assumption since
grinders have an obligation to sell final product that is not contaminated with E. coli
O157:H7. According to FSIS National officials, they are also developing guidance
for industry related to sampling and testing claims that may be made on product
labels. As of March 1, 2012, this guidance was in Agency clearance to be issued in
spring 2012.




                                                  AUDIT REPORT 24601-0001-31        39
Agency’s Response




                  USDA’S
     FOOD SAFETY INSPECTION SERVICE’S
        RESPONSE TO AUDIT REPORT




40   AUDIT REPORT 24601-0001-31
     United States       Food Safety            Washington, D.C.
     Department of       and Inspection         20250
     Agriculture         Service


       TO:    Gil Harden
              Assistant Inspector General for Audit
              Office of Inspector General

   FROM:      Alfred V. Almanza           /s/         April 13, 2012
              Administrator
              Food Safety and Inspection Service

SUBJECT:      Office of Inspector General (OIG) Official Draft Audit Report – Application of FSIS
              Sampling Protocol for testing Beef Trim for E. coli O157:H7 – Phase II, Report
              Number 24601-0001-31


The Food Safety and Inspection Service (FSIS) has reviewed this report and responded to each
of the recommendations.

Recommendation 1
Issue revised guidance to industry regarding the agency’s expectations for trim sampling and
how industry should plan for and react to high event periods. Include in the guidance specific
information on the critical elements to be included in a high event period plan and the necessary
support for the high event period criteria, such as how the plant may interact with FSIS staff,
and how the plant may determine what non-tested or negatively tested product should be
considered positive when the plant has multiple positive test results.

Agency Response
FSIS will issue revised guidance to beef slaughter and fabrication establishments that
manufacture beef trimmings on procedures they can use to assess the effectiveness of their
controls for preventing contamination during the slaughter operation. This document will include
guidance that establishments can use to determine whether they are experiencing a “high event
period” (HEP). HEPs are periods during which slaughter establishments experience a high rate
of positive results for E. coli O157:H7 (or STEC or virulence markers) in trim samples. The
guidance will recommend that establishments identify HEP criteria so that they can determine
whether they need to withhold product from commerce when a HEP has occurred because the
occurrence of a HEP may indicate more widespread adulteration of product, beyond the product
found positive. The guidance will explain that if establishments identify and respond to HEPs,
they will minimize the chance that they will release adulterated product into commerce. This
guidance will provide criteria establishments may use for determining whether they have
experienced a HEP. Establishments may use the criteria that FSIS has provided to define a
HEP, or they may develop their own criteria. As part of their supporting documentation for their
hazard analysis, the guidance will recommend that establishments document their criteria for
identifying a HEP. The guidance will recommend that establishments document their criteria for
identifying a HEP as part of their supporting documentation for their hazard analysis.

Furthermore the document will recommend that establishments conduct sampling and testing of
trim at a frequency sufficient to find evidence of contamination surviving the slaughter and
dressing operation. The document explains that establishments’ deviations from previously
obtained percent positive rates should be construed as presumptive evidence that the process
is out of control that would warrant an investigation to find and eliminate potential causes for
positive results. Furthermore, to prevent the occurrence of HEPs, the document recommends
more rigorous testing during the high prevalence season and effective slaughter and dressing
procedures to minimize, to the maximum extent practical, cross contamination of carcasses with
the contaminants from the hide and intestinal tract.

The document will also include actions that establishments should take during a high event
period. Generally, if primals are not commingled by stacking or storing in common containers
without individual separation before packaging, and the establishment minimizes cross
contamination among primals, an individual primal can be considered a microbiologically
independent lot. Normally, FSIS does not consider primal cuts designated for intact use to be
adulterated if contaminated with E. coli O157:H7. The guidance will explain that during a HEP
situation, unless the establishment has controls in place to ensure that the primals are not used
for non-intact purposes, such primals may be considered adulterated because they were
prepared under insanitary conditions. FSIS will be aware of establishment test results because
FSIS reviews establishment results on at least a weekly basis.

Estimated Completion Date: FSIS will issue the revised guidance no later than July, 2012.


Recommendation 2
Review the available scientific data and hold discussions with appropriate stakeholders to
determine if FSIS sampling resources could be better utilized and identification of E. coli
O157:H7 contamination could be improved if the agency devoted more of its sampling efforts to
sampling beef trim instead of ground beef. Shift resources, if needed, based on the scientific
data and discussions. Develop a detailed plan with milestones and timeframes for
implementing any proposed changes based on this review.

Agency Response
FSIS is making certain changes to its trim sampling program to make it risk based. In addition,
during this calendar year and next, FSIS intends to identify additional ways to make its testing
programs for E. coli O157:H7 more risk based, such as consideration of information available
through PHIS, from inspection program personnel, and from risk analyses. FSIS intends to
announce the changes in its trim sampling program in the Federal Register in the next 3-6
months and to ask for comment on the changes and other issues under consideration. Also,
next calendar year, FSIS intends to conduct a study to test product from unopened containers
or purge material (that is, remaining liquid, fat, and meat particles in containers or combo bins
after trim contents have been removed) from suppliers’ product for E. coli O157:H7. The
purpose of this study will be to identify the source of E. coli O157:H7 positive raw ground beef
when material from multiple suppliers was used to create the sampled ground beef that FSIS
has found positive for E. coli O157:H7. Furthermore, FSIS intends to change how Agency
verification samples are scheduled such that FSIS can obtain on-going baseline prevalence
information about select pathogens such as E. coli O157:H7. In some cases, more samples
may be necessary than those currently analyzed in the verification testing program. FSIS
recognizes that today the number of samples analyzed is far less than the number of samples
scheduled. As the scheduled-to-analyzed rate improves through implementation of PHIS, the
increase in the number of samples needed for the baseline prevalence determination may be
more closely matched. Finally, while the focus of OIG was E. coli O157:H7, FSIS intends to
begin co-analyzing all beef samples for Salmonella over the course of the next few years.
Ground beef samples, particularly, will provide an indication of the level of process control for
external contamination during slaughter, as well as the internal contamination that may result
from Salmonella in lymph nodes. Thus, the issue of redirecting samples from the ground
program to the trim program is complicated and requires further analysis before making such a
change.
Estimated Completion Date: FSIS will report on the progress of these reviews and discussions
and any resulting changes no later than April, 2013.


Recommendation 3
Work with appropriate officials inside and outside FSIS to evaluate if the agency needs to revise
its performance measure for testing E.coli to account for the advantage in testing beef trimmings
compared to ground beef. If agency officials determine that a revised performance measure is
needed, develop a detailed plan with milestones and timeframes for implementing the new
performance measure.

Agency Response
FSIS will evaluate the appropriateness of its Agency performance standards in the context of
any changes to sampling algorithms or sample allocations. If necessary changes are identified,
FSIS will develop proposed changes to the performance standards and elicit external input as
appropriate. FSIS will complete its review of public health and FSIS resource impacts to
performance standards before implementing any changes to sampling. FSIS intends to conduct
this review and identify any needed changes next calendar year.

Estimated Completion Date: FSIS will report on this evaluation and any resulting changes no
later than April, 2013.


Recommendation 4
Reevaluate the policies for how inspectors collect trim samples, including the random selection
of product for sampling, collecting samples of proper weight, and not taking multiple samples
from single pieces of trim. Develop a detailed plan with milestones and timeframes for
implementing any corrective actions resulting from this agency reevaluation.

Agency Response
FSIS will issue instructions for collecting samples of the proper weight no later than August
2012.
 FSIS will evaluate the current instructions, identify any necessary changes, and reissue the
directive during calendar year 2013.


Estimated Completion Date: FSIS will report on this reevaluation and any resulting changes no
later than April, 2013.


Recommendation 5
Reevaluate noncompliance policy ambiguities in FSIS Directive 10,010.1 and revise agency
procedures to ensure that industry is not avoiding regulatory action. Develop a detailed plan
with milestones and timeframes for implementing any corrective actions resulting from this
agency reevaluation.

Agency Response
FSIS will evaluate the current instructions, identify any necessary changes, and reissue the
directive.


Estimated Completion Date: FSIS will reissue the directive no later than April, 2013.
Recommendation 6
Develop a detailed plan with milestones and timeframes to determine whether the quality of
inspection in T/A plants is such that it increases the possibility of E. coli contamination in the
products that these plants produce. Based on this evaluation, determine if additional FSIS
oversight and communication are needed at T/A plants and State inspection agencies. If so,
determine what type of oversight and communication are needed and how they will be provided.


Agency Response
FSIS will develop a detailed plan with key milestones and schedules to determine whether the
quality of inspection in T/A plants is such that it increases the possibility of E. coli contamination
in the products that the plants produce. Based on the findings, FSIS will develop a corrective
action plan to address any weaknesses in the management controls, monitoring, or
communications.

Estimated Completion Date: FSIS will complete the evaluation by August 2012 and the plan of
action to address weaknesses no later than April 2013.


Recommendation 7
Improve communication by issuing guidance to industry to assist plants in selecting laboratories
based on capabilities of the testing laboratories. This guidance should provide a checklist for
industry on the issues to consider and also the type of documentation that plants should
maintain to support their testing program.

Agency Response
On March 8, 2012, FSIS announced the availability of policy guidance for federally inspected
establishments in the selection of commercial and private microbiological testing laboratories.
FSIS has posted this policy guidance on its Web page
http://www.fsis.usda.gov/Regulations_&_Policies/Compliance_Guides_Index/index.asp#Micro. FSIS
encourages establishments that prepare meat, poultry, or processed egg products to follow the
criteria in the guidelines in selecting commercial or private microbiological testing laboratories
and in determining their capability to provide accurate and reliable results. The guidance
includes a checklist for industry on the issues to consider and also the type of documents that
plants should maintain to support their testing program.
Informational copies of this report have been distributed to:

Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
